WAIVER

Supreme Court of the United States

No. 20-5176
Nicholas Harris v. California
(Petitioner) (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
(X Please enter my appearance as Counsel of Record for all respondents.

OQ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

Iam a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar my er.

 

Signature
Date: _ August 5, 2020
(Type or print) Name__Bruce Ortega
Mr. O Ms. OMrs. O Miss

Firm___ California Department of Justice

Address__455 Golden Gate, Avenue, Suite 11000

City & State__San Francisco, Calfornia Zip __ 94102
Phone ___ 415.510.3835

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Wr. William M. Robinson

Sixth District Appellate Program
95 South Market Street

Suite 570

San Jose, CA 95113

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
